<>

provided to
QUINCY ANNEX ON

SEP 03 2020
IN THE

FOR MAILING
BY

SUPREME COURT OF THE UNITED STATES

Supreme Court, U.S.
FILED

SEP 0 4 2020
ANTHONY ROGELIO GRIEGO - PETITIONER

OFFICE OF THE CLERK

VS.
MARK S. INCH, SECRETARY,
FLORIDA DEPARTMENT OF CORRECTIONS,
RESPONDENT(S).

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

Anthony R. Griego, pro se
DC# P36771
Quincy Annex
2225 Pat Thomas Pkwy.
Quincy, FI. 32351
73

QUESTION(S) PRESENTED
1} Whether the state court's decision was contrary to or involved an unreasonable application of
Strickland v. Washington's deficient performance analysis and or Hill v. Lockhart's and Lee v.
United States' prejudice analysis where the “state court” determined that the lack of viable
defense precluded such findings;
II) Whether the state court's decision was an unreasonable determination of facts in light of the
evidence presented in the state court;
III) (a) Whether, in order to satisfy 28 U.S.C. 2254(d)(2), a movant must establish only that
the state-court factual determination on which the decision was based was “unreasonable,” or
whether 28 U.S.C. 2254(e)(1) additionally requires a movant to rebut a presumption that the
determination was correct with clear and convincing evidence;
(b) Also, when a movant attempts to rebut with clear and convincing evidence a
presumption that the state court's factual determination was correct under 2254(e)(1), is a movant
limited to only evidence that was presented in the state-court or can a movant rely on “extrinsic”
evidence properly sought to be introduced in the federal court;
IV) Whether Petitioner made a substantial showing that he was denied his constitutional right to
a full and fair jury trial due to ineffective assistance of trial counsel in violation of the 5th, 6th, and
14th, Amendments of the U.S. Constitution, and clearly established federal law in Strickland v.
Washington, infra; Hill v. Lockhart, infra, and its progeny;
V) Whether this Court's decision in Birchfield v. North Dakota, holding that the State's may not
criminally punish offenders for resisting an unconstitutional blood draw should be applied
retroactively to cases on collateral review.

0

LIST OF PARTIES
All parties appear in the caption of the case on the cover page

TABLE OF CONTENTS

OPINIONS BELOW.

I

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

.2

STATEMENT OF THE CASE

,4

REASONS FOR GRANTING THE WRIT.

.9

II. The decision of the Court of Appeals is Erroneous

10

A. The District Court decision was erroneous and unreasonable,

10

1) Whether the plea form and plea colloquy refute Petitioner's claim,

11

2) Whether trial counsel's failure to advise Petitioner of viable defense renders
Petitioner's plea involuntarily entered

13

3) Whether Petitioner had a viable defense.,

14

4) Whether the record supports Petitioner's claim that he would not have entered a plea
but would have insisted on going to trial

19

B. Post-Conviction Court Order: State Court's decision was unreasonable under
2254(d)(2) and the factual findings have been overcome bv clear and convincing evidence in the
.23
record under 2254(e)(1)
1) Whether the state court decision was contrary to or involved an unreasonable
application ofStrickland.
.24
2) Whether the state court's decision was unreasonable in light of the evidence
presented as the the state court's decision is unsupported by sufficient evidence; its fact
finding process was defective as it misapprehends; misconstrues, misstates, or ignores

in

•>

evidence in the record, the fact finding was infected by legal error; and no fact finding was
made at all on relevant issues
26

C. Factual Finding by the state court was overcome by clear and convincing
evidence outside the record under 2254(e)(1),
.33

D. Petitioner has made a substantial showing of the denial of a constitutional right
,35
.36

III. The questions presented are important.

IV. Warrantless Blood Draw taken in Violation of the Fourth Amendment of the U.S.
Constitution; Newly Recognized Right as announced by the U.S. Supreme Court in
Birchfield v. North Dakota that states may not criminally punish a defendant for refusing a
unlawful blood draw should be retroactively applied to cases on collateral review
,38

,40

CONCLUSION
INDEX TO APPENDICES

APPENDIX A- Opinion of the Eleventh Circuit United States Court of Appeals denying a
Certificate of Appealability
APPENDIX B- (1) Opinion of the United States District Court of Florida, Northern Division
adopting the Report and Recommendation of the Magistrate Judge; and (2) Magistrate Judge's
Report and Recommendation

IV

TABLE OF AUTHORITIES CITED
Cases
Burt v. Titlow, 571 US 12, 134 S Ct 10, 187 L.ed 2D 348, 571 U.S. 12 (2013

9

Ben-Yisrayl v. Buss, 540 F.3d 542, 549 (CA7 2008)

10

Bradshaw v. Stumf, 545 U.S. 175, 183 (2005)

25

'Brumfield v. Cain, 135 S.Ct. 2269 (2015).........................................

9

Consalvo v. Sec'y, Dept't of Corr., 664 F.3d 842, 845 (11th Cir. 2011)

14

Edmondson v. Sec'y, Fla. Dep't of Corr., 2018 U.S. App. LEXIS 21261 (11th Cir. (Fla.) 2018).. 13
Fagin v. State, 2019 WL 4853606 (Minn. 2019)......................................................................... 39
Goodmanv. State, 2017Fla.App. Lexis 10689, 42 Fla. L. Weekly D1669 (Fla. 4th DCA 2017).
16, 29
Griego v. Inch, 2019 U.S. Dist. LEXIS 144676 (U.S.D.C. Fla. 2019

1

Griego v. Inch, 2019 U.S. Dist. LEXIS 145637 (U.S.D.C. Fla. 2019)

1

Griego v. State, 207 So. 3d 224 (Fla. 1st DCA 2016)

6

Griego v. State, 232 So. 3d 982 (Fla. 1st DCA 2017)

7

Griego v. State, 258 So. 3d 389 (Fla. 1st DCA 2018)

7

Griego v. State, 29 So. 3d 1121 (Fla. 1st DCA 2010)

5
23

Harrington v. Richter. 562 U.S. at 98, 131 S.Ct., 770, (2011))
Henderson v. Morgan, 96 S. Ct. 2253 (1976)

13,25

Hill v. Lockhart, 474 U.S. 52, 56-58, (1985)

passim
20

Hill v. Lockhart, 877 F.2d 698 (1989)
Johnson v. State, 916 N.W. 2d 674 (Minn 2018) cert, denied___U.S.____, 139 S.Ct. 2475
(2019)

39
v

)

'

38

Katz v. United States, 389 U.S. 347, 357, 88 S. Ct. 507, 19 L. Ed. 2d 576 (1967)
Lqflerv. Cooper, 132 S. Ct. 1376, 182 L. Ed. 2d 398 (2012)

25, 36, 37

Lambert v. Blackwell, 387 F.3d 210, 235 (CA3 2004)

10
2, 7, 20, 37

Lee v. United States, 137 S.Ct. 1958 (2017)
Marshall v. Lonberger, 459 U.S. 422, 434 (1983) ....

14

Martin v. State, 323 So. 2d 666 (Fla. 3rd DCA 1975)

15, 29

McMannv Richardson, 397 US 759, 770, 25 LEd 2d 763, 90 S Ct 1441 (1970)

13

Miller v. Champion, 262 F.3d 1066 (10th Cir. 2001)

20

Missouri v. Frye, 132 S. Ct. 1399, 1404, 182 L. Ed. 2d 379 (2012)

25, 36

Missouri v. McNeely, 133 S. Ct. 1552,1559, 185 L. Ed. 2d 696 (2013)

38

Montgomery v. Louisiana, 136 S. Ct. 718, 728-32 (2016)

39

Padilla v. Kentucky, 559 U.S. 356, 130 S. Ct. 1473, 176 L. Ed. 2d 284 (2010

13,25, 36
26

Pemberton v. Collins, 991 F.2d 1218, 1225 (5th Cir. 1993)
Rice v. Collins, 546 U.S. 333, 339,126 S. Ct. 969, 163 L. Ed. 2D 824 (2006)

9

Schmerberv. California, 384 U.S. 757, 86 S. Ct. 1826 (1966).................................................. 38
Sims v. State, 998 So. 2d 494 (Fla. 2008) (citing Triplett v. State, 709 So. 2d 107, 108 (Fla. 5th
DCA 1998))

16,17, 18,30

State v. Mancuso, 652 So. 2d 370, 372 (Fla. 1995)
Strickland v. Washington, 466 U.S. 668

18,30
passim

Sumner v. Mata, 455 U.S. 591, 597, 102 S. Ct. 1303, 71 L. Ed. 2D 480 (1982)
Taylor v. Maddox, 366 F.3d 992, 999-1000 (CA9)
Tollett v. Henderson, 411 U.S. 258, 93 S. Ct. 1602, 36 L. Ed. 2D 235 (1973

vi

27
9, 11,28
13

Trussell v. Bowersox, 447 F.3d 588, 591 (CA8)..........................

10

U.S. v. Brown, \ 17 F. 3d 471 (11th Cir. 1997)...............................

37

United States v. Ortiz-Sanchez, 138 F. Appx. 921 (9th Cir. 2005))

13

Von Moltke v. Gillies, 332 U.S. 708, 721 (1948)

25

Widen v. Sec., Fla. Dep’t of Corn, 2010 U.S. Dist Lexis 87677 (U.S.M.D. Fla. 2010)

37

Wiggins, 123 S.Ct 2539-40)

11

Wilson v. Sellersa 138 S.Ct. 1188,1192 (2018)

11,23,32

Wofford v. Wainwright, 748 F.2d 1505, 1508 (11th Cir. 1984)
Woodv. Allen, 558 U.S. 290, 130 S. Ct. 841, 175 L. Ed. 2D 738 (2010)

37
9

Statutes
28U.S.C. 1746

41

28 U.S.C. 2253

2, 4, 25

28 U.S.C. 2254

2, 4,10
5, 15, 18, 29

316.027(1 )(b)
316.193(3)(a), (b), (c)(3)a

5

843.02

5

Other Authorities
Fla. Std. Jury Instr. (Crim) 28.4 (2008)

18,30

Constitutional Provisions
14th Amendment................

2,36

4th Amendment

2, 6, 40

5th Amendment

2

6th Amendment

2, 25, 36

Vll

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ x ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A to the petition
and is
or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ x ] is unpublished.
The opinion of the United States district court appears at Appendix B to the petition and
is
[ x ] reported at Griego v. Inch, 2019 U.S. Dist. LEXIS 144676 (U.S.D.C. Fla. 2019);
Griego v. Inch, 2019 U.S. Dist. LEXIS 145637 (U.S.D.C. Fla. 2019); or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
JURISDICTION
[ x ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case was
June 05,2020.
[ x ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of Appeals on
, a copy of the order denying rehearing appears
the following date:
at Appendix_____
[ ] An extension of time to file the petition for a writ of certiorari was granted to and
(date) in Application No.___
including
(date) on
A
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).
1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Fourth Amendment
The 4th Amendment of the U.S. Constitution provides in part “[t]he right of the people to
be secure in their persons, houses, papers, and effects, against unreasonable searches and
seizures[.]”
Fifth Amendment
The 5th Amendment of the U.S. Constitution provides in part that “[n]o person shall... be
compelled in any criminal case to be a witness against himself, nor be deprived of life, liberty, or
property, without due process of law[.]”
Sixth Amendment
The 6th Amendment of the U.S. Constitution provides that “[i]n all criminal prosecutions,
the accused shall enjoy the right to a speedy and public trial, by an impartial jury of the State and
district wherein the crime shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory process for obtaining witnesses
in his favor, and to have the Assistance of Counsel for his defence.”
Fourteenth Amendment
The 14th Amendment of the U.S. Constitution provides in part that “[n]o State shall make
or enforce any law which shall abridge the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life, liberty, or property, without due process of
law; nor deny to any person within its jurisdiction the equal protection of the laws.

28 U.S.C. 2254 provides in relevant part:

(a) The Supreme Court, a Justice thereof, a circuit judge, or a district court shall entertain
an application for a writ of habeas corpus in behalf of a person in custody pursuant to the
judgment of a State court only on the ground that he is in custody in violation of the
Constitution or laws or treaties of the United States.

(b) (1) An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted unless it appears that7
(A) the applicant has exhausted the remedies available in the courts of the State; or
2

(B) (i) there is an absence of available State corrective process; or
(ii) circumstances exist that render such process ineffective to protect the rights of
the applicant.
(2) An application for a writ of habeas corpus may be denied on the merits,
notwithstanding the failure of the applicant to exhaust the remedies available in the courts
of the State.
(3) A State shall not be deemed to have waived the exhaustion requirement or be
estopped from reliance upon the requirement unless the State, through counsel, expressly
waives the requirement.
(c) An applicant shall not be deemed to have exhausted the remedies available in the
courts of the State, within the meaning of this section, if he has the right under the law of
the State to raise, by any available procedure, the question presented.
(d) An application for a writ of habeas corpus on behalf of a person in custody pursuant to
the judgment of a State court shall not be granted with respect to any claim that was
adjudicated on the merits in State court proceedings unless the adjudication of the claim7
(1) resulted in a decision that was contrary to, or involved an unreasonable application
of, clearly established Federal law, as determined by the Supreme Court of the United
States; or
(2) resulted in a decision that was based on an unreasonable determination of the facts
in light of the evidence presented in the State court proceeding.

(e) (1) In a proceeding instituted by an application for a writ of habeas corpus by a person
in custody pursuant to the judgment of a State court, a determination of a factual issue
made by a State court shall be presumed to be correct. The applicant shall have the
burden of rebutting the presumption of correctness by clear and convincing evidence.
(2) If the applicant has failed to develop the factual basis of a claim in State court
proceedings, the court shall not hold an evidentiary hearing on the claim unless the
applicant shows that7
(A) the claim relies on7
(i) a new rule of constitutional law, made retroactive to cases on collateral review
by the Supreme Court, that was previously unavailable; or
3

(ii) a factual predicate that could not have been previously discovered through the
exercise of due diligence; and
(B) the facts underlying the claim would be sufficient to establish by clear and
convincing evidence that but for constitutional error, no reasonable factfinder would have
found the applicant guilty of the underlying offense.

28 U.S.C. 2253 provides in relevant part:

(c) (1) Unless a circuit justice or judge issues a certificate of appealability, an appeal may
not be taken to the court of appeals ffom7
(A) the final order in a habeas corpus proceeding in which the detention complained
of arises out of process issued by a State court; or
(B) the final order in a proceeding under section 2255 [28 USCS c 2255].
(2) A certificate of appealability may issue under paragraph (1) only if the applicant
has made a substantial showing of the denial of a constitutional right.
(3) The certificate of appealability under paragraph (1) shall indicate which specific
issue or issues satisfy the showing required by paragraph (2).

STATEMENT OF THE CASE
The jurisdiction of the U.S. District Court, Northern District of Florida was timely
invoked pursuant to 28 U.S.C. 2254 by the Petitioner's filing of a Petition for Writ of Habeas
Corpus by a person in state custody. The district court denied the petition and Petitioner timely
appealed and subsequently sought a Certificate of Appealability from the U.S. Eleventh Circuit
Court of Appeals. The circuit court denied the request for a certificate on June 5, 2020. This
Court's jurisdiction is timely invoked.

<

State proceedings:

4

Stemming from a vehicle/pedestrian accident that occurred in the early morning hours on
August 19, 2007, Petitioner was charged in the State of Florida, Santa Rosa County, with Count
One-D.U.I. Manslaughter of Gerran Clayton Copeland in violation of sections 316.193(1) and
316.193(3)(a), (b), (c)(3)a, Florida Statutes. He was also charged with Count Two- Leaving the
scene of a Crash involving a death (LSOA) in violation of section 316.027(1 )(b), Florida Statutes
(2007), and Count Three, resisting an officer without violence, in violation of s.843.02, Florida
Statutes.
After a plea of guilty as charged to the offenses, Petitioner was sentenced on April 23,
2008, to 13 years in prison for Count One; 8 years in prison for Count Two, consecutive to the
sentence in Count One; and 270 days in jail for Count Three, concurrent to the sentence in Count
One.
Petitioner's state direct appeal was affirmed per curiam without written opinion on
February 25, 2010. See, Griego v. State, 29 So. 3d 1121 (Fla. 1st DCA 2010) Relevant to these
proceedings, thereafter Petitioner filed a timely Motion for Postconviction Relief pursuant to
Florida Rules of Criminal Procedure 3.850 with an addendum thereto entitled “Final Amended
Motion” for Postconviction Relief with Incorporated Memorandum of Law, alleging fourteen
grounds.
The postconviction court scheduled an evidentiary hearing on all of Petitioner’s claims
except ground two, which challenged the voluntariness of his plea due to the trial court's
conducting of an inadequate plea colloquy. Counsel was appointed to represent Petitioner at the
evidentiary hearing which was held on January 27, 2015. The post-conviction motion was
denied, and a timely appeal followed in which the First District Court of Appeal affirmed without

5

a written opinion the postconviction court's denial. See, Griego v. State, 207 So. 3d 224 (Fla. 1st
DCA2016)
In his post-conviction motion ground five, the Petitioner alleged that his trial counsel was
ineffective in failing to adequately advise him that the law concerning the charge of leaving the
scene of a crash involving death required that he have knowledge of injury before he made the
affirmative decision to leave the scene of the crash, which is determined by the totality of the
circumstances, including the nature of the crash. Also, that his actions could be considered as
complying with the requirements of Florida law as he stopped close to the scene as possible at
the nearby convenient store, reported to the store clerk and law enforcement of his involvement
in a crash in which paramedics were summoned and rendered assistance to the victim, and
provided his identification to law enforcement. Further, that his leaving the scene can be
considered a defense to the charge where leaving the scene of the crash is the only way to call for
assistance. In denying this claim the post-conviction court held:
“The Court finds counsel's and Defendant's testimony credible that Defendant position
was that he did not know that he hit a person. The Court also finds [Petitioner's mother's]
testimony credible that counsel did not discuss with her any defenses to the leaving the
scene of an accident charge. Based on the evidence before this Court, the Court finds that
Defendant did not have any viable defenses to the leaving the scene of the accident
charge....As there was no viable defense to leaving the scene of an accident given the
circumstances of this case, Defendant has failed to demonstrate that counsel was deficient
for failing to advise of any defense to the charge.”

On March 6, 2017, Petitioner filed a pro se amended second or successive motion for
postconviction relief alleging four grounds, among them was a claim that this Court's new
decision in Birchfield v. North Dakota, infra entitled him to collateral relief as he was criminally
punished for resisting an unlawful blood draw in violation of the 4th Amendment of the U.S.

6

Constitution. Petitioner argued that his conviction and sentence for count 3 should be dismissed
and that he should also be resentenced on the other counts as well as the sentencing court
increased his sentence based upon the resisting allegations. The court summarily denied the
claim (without a hearing) on May 9, 2017, ruling that Birchfield had not been made retroactive to
cases on collateral review by the U.S. or Florida Supreme Court and therefore Petitioner could
not collaterally attack his conviction and or sentence. The appeal from said denial was also
affirmed without a written opinion. See, Griego v. State, 258 So. 3d 389 (Fla. 1st DCA2018)
Petitioner also filed a writ of habeas corpus on August 2, 2017, in the state appeals court
alleging that the denial of his first post-conviction appeal without written opinion should be
reconsidered in light of this Court's decision in Lee v. U.S., infra Petitioner argued that the
previous post-conviction denial was wrongly decided on the sole basis of whether the Petitioner
had a viable defense in which Lee established that that is not always the determinative factor in
determining whether a movant can meet the prejudice prong of Hill v. Lockhart, infra. The state
appeals court denied the petition on the merits without written opinion. Griego v. State, 232 So.
3d 982 (Fla. 1st DCA 2017)
Federal Proceedings
On January 29, 2017, Petitioner timely filed his first Petition for Writ of Habeas Corpus.
An Amended Petition was filed with leave of court on March 16, 2017, raising ten grounds for
relief. The Petitioner filed two separate Motions to Conduct Discovery and Financial Assistance
to Hire an Expert and to expand the record with such evidence which was denied.
After the Respondent’s Answer and the Petitioner’s Traverse, wherein he again sought
expansion of the record and an evidentiary hearing to meet his burden under AEDPA, the

7

Magistrate Judge filed its Report and Recommendation on July 01, 2019. The Magistrate Judge
recommended that Petitioner’s petition be denied, including Petitioner’s request to conduct
discovery, for financial assistance to hire an expert, for appointment of counsel, and to
supplement the record. The Magistrate also recommended a certificate of appeal be denied as
well opining that the “Petitioner has failed to make a substantial showing of the denial of a
constitutional right.” Petitioner filed his Objections to the Magistrate Judge’s Report and
Recommendation arguing in relevant part that the resolution of ground five was erroneous and
unreasonable and that any decision to the merits of claim five without consideration of the
evidence sought to be expanded into the record is erroneous. The Respondent did not file any
cross-objections. The District Court Judge, Honorable Lacy A. Collier, entered an Order on
August 26, 2019, adopting and incorporating by reference the report and recommendation, and
denied the Petitioner’s petition grounds 1-9, and dismissed for lack of jurisdiction ground 10
opining that the Petitioner was not “in custody”. The District Court also denied Petitioner’s
motion to conduct discovery, for financial assistance to hire an expert, for appointment of
counsel, and to supplement the record, as well as a certificate of appealability and leave to appeal
in forma pauperis.
Petitioner filed a timely Notice of Appeal invoking the jurisdiction of the U.S. 11th Circuit
Court of Appeals on September 24, 2019, and subsequently filed a Petition for Application for a
Certificate of Appealability in the court of appeals. The 11th Circuit denied application on June 5,
2020. This petition timely follows.

8

REASONS FOR GRANTING THE PETITION
I. Conflict. In Wood v. Allen, 558 U.S. 290, 130 S. Ct. 841, 175 L. Ed. 2D 738 (2010) this
Court granted certiorari to review a question that has divided the Courts of Appeal: whether in
order to satisfy

2254(d)(2) a petitioner must establish only that the state-court factual

determination on which the decision was based was “unreasonable,” or whether 2254(e)(1)
additionally requires a petitioner to rebut a presumption that the determination was correct with
clear and convincing evidence. Wood, supra, 500 U.S. At 299. Interestingly, this Court has
recognized this conflict on other occasions as well1 but, on each occasion, ultimately decided not
to reach the question because “our view of the reasonableness of the state court's factual
determination in th[ose] case[s] do not turn on any interpretive difference regarding the
relationship between these provisions.” (Id. at 300)
Most recently, in Brumfield v. Cain, 135 S.Ct. 2269 (2015) this Court acknowledged,
“[w]e have not yet 'defined the precise relationship between 2254(d)(2) and 2254(e)(1).”
Brumfield, 135 S.Ct. At 2282. Thus, as this Court is well aware there continues to exist a
conflicted reading of the relationship between 2254(d)(2) and 2254(e)(1).
In Wood, supra, this Court noted the conflict concerning the above mentioned provisions
amongst the federal circuit courts: “See, e.g., 542 F.3d 1281, 1285, 1304, n. 23 (CA11 2008)
(case below); Taylor v. Maddox, 366 F.3d 992, 999-1000 (CA9) (where a habeas petitioner
challenges state-court factual findings "based entirely on the state record," the federal court
reviews those findings for reasonableness only under 2254(d)(2), but where a petitioner
1
See, Rice v. Collins, 546 U.S. 333, 339, 126 S. Ct. 969,163 L. Ed. 2D 824 (2006); Burt v.
Titlow, 571 US 12,134 S Ct 10, 187 L.ed 2D 348, 571 U.S. 12 (2013), Brumfield v. Cain, 135
S.Ct. 2269(2015)
9

challenges such findings based in part on evidence that is extrinsic to the state-court record,
2254(e)(1) applies), cert, denied, 543 U.S. 1038, 125 S. Ct. 809, 160 L. Ed. 2d 605 (2004);
Lambert v. Blackwell, 387 F.3d 210, 235 (CA3 2004) ("[Section] 2254(d)(2)'s reasonableness
determination turns on a consideration of the totality of the 'evidence presented in the state-court
proceeding,' while 2254(e)(1) contemplates a challenge to the state court's individual factual
determinations, including a challenge based wholly or in part on evidence outside the state trial
record"); Trussell v. Bowersox, 447 F.3d 588, 591 (CA8) (federal habeas relief is available only
"if the state court made 'an unreasonable determination of the facts in light of the evidence
presented in the State court proceeding,' 28 U.S.C. 2254(d)(2), which requires clear and
convincing evidence that the state court's presumptively correct factual finding lacks evidentiary
support"), cert, denied, 549 U.S. 1034, 127 S. Ct. 583, 166 L. Ed. 2d 434 (2006); Ben-Yisrayl v.
Buss, 540 F.3d 542, 549 (CA7 2008) ( 2254(d)(2) can be satisfied by showing, under 2254(e)(1),
that a state-court decision "rests upon a determination of fact that lies against the clear weight of
the evidence" because such a decision "is, by definition, a decision so inadequately supported by
the record as to be arbitrary and therefore objectively unreasonable" (internal quotation marks
omitted)).”
Petitioner contends that his case finally presents an opportunity for this Court to address
the long-raised but yet unresolved question on the relationship between 2254(d)(2) and 2254
(e)(1) and therefore submits that this Court should grant certiorari to review these important
conflicts.
II. The decision of the Court of Appeals is Erroneous.
A. The District Court decision was erroneous and unreasonable

10

In the Answer to claim five of the Petitioner's 2254 petition, the Respondent argued
“given the totality of the circumstances surrounding Petitioner's guilty pleas (e.g. his plea
colloquy, the unlikely prospect of prevailing at trial, and his prison exposure of 46 years), the
[state review court] could have reasonably concluded that Petitioner failed to establish a
substantial likelihood that he would have moved to withdraw his plea and gone to trial but for
counsel's performance.” The U.S. district court essentially adopted these arguments in it order.
(See Appendix B p. 44-49) Pursuant to Wilson, under AEDPA the district court is required to
“look through” the silent decision of the state review court “to the last related state-court
decision that does provide a relevant rationale. It should then presume that the unexplained
decision adopted the same reasoning. But the State may rebut the presumption by showing that
the unexplained affirmance relied or most likely did rely on different grounds than the lower
state court's decision, such as alternative grounds for affirmance that were briefed or argued to
the state supreme court or obvious in the record it reviewed” Wilson v. Sellersx 138 S.Ct. 1188,
1192 (2018)
There were no factual findings made by the state review court in which to attach the
presumption under 2254(d) or 2254(e). See Maddox, 366 F.3d 1000-01 (citing Wiggins, 123 S.Ct
2539-40)
1) Whether the plea form and plea colloquy refute Petitioner's claim
The District Court relies on the plea form and the plea colloquy to hold that the record
belies his claim that counsel failed to advise him of potential defenses and that “Petitioner cannot
go behind the plea agreement and his sworn testimony that he was fully informed, was waiving
any defenses, and was entering the plea voluntarily to offenses for which he agreed there was a

11

factual basis.” (Appendix B R&R pg. 44-46) Petitioner contends that jurists of reason would
disagree with the District Court’s determination that the plea agreement and the plea colloquy are
sufficient to refute the Petitioner’s allegations that he was not advised/misadvised by counsel
concerning the law pertaining to LSOA and/or viable defenses.
First, Petitioner contends that the plea form and the plea colloquy are general. Petitioner
contends that neither the plea agreement nor the plea colloquy detail the Petitioner's
understanding of the law pertaining to LSOA or whether he had any viable defenses or what
defenses were discussed between Petitioner and his counsel, and as to which charge. All the
colloquy reveals concerning a factual basis for the LSOA charge is that “Petitioner left the scene
and went to a convenient store where 911 was called.” Additionally, the colloquy does not refute
Petitioner’s sworn, credible, and unrebutted allegations testified to at the postconviction
evidentiary hearing that he was misadvised of the standard of proof regarding LSOA in that all
that was required was knowledge of the crash, or that his counsel failed to advise him that the
law requires knowledge of injury which is determined based upon the totality of the
circumstances, including the nature of the of the crash and to which the requisite knowledge
would have to be formed prior to making the decision to leaving the scene. The postconviction
court found Petitioner’s testimony credible and, as argued below, found that his trial counsel did
not advise him as to the law pertaining to LSOA or any defenses related thereto. Therefore,
Petitioner contends with the aforementioned reasonable jurists would not disagree that the plea
agreement/colloquy is insufficient to refute the Petitioner’s allegations that he was not
advised/misadvised of the law pertaining to LSOA and related defenses.

12

2) Whether trial counsel's failure to advise Petitioner of viable defense renders Petitioner's
plea involuntarily entered
As objected to in the District Court, the Petitioner contends that jurists of reason would
disagree with the District Court's determination that “even if counsel failed to advise him of any
defenses to the charge—or advised him there were no viable defenses—that does not render a
guilty plea involuntary.” (Appendix B R&R at pg. 46 citing United States v. Ortiz-Sanchez, 138
F. Appx. 921 (9th Cir. 2005)) It is well-established that trial counsel’s ineffective assistance
during the plea process may render a guilty plea involuntary. Hill v. Lockhart, 474 U.S. 52, 5658, (1985). In Hill this Court recognized,
“Where, as here, a defendant is represented by counsel during the plea process and
enters his plea upon the advice of counsel, the voluntariness of the plea depends on
whether counsel's advice "was within the range of competence demanded of attorneys
in criminal cases." As we explained in Tollett v Henderson [citation omitted], a
defendant who pleads guilty upon the advice of counsel "may only attack the
voluntary and intelligent character of the guilty plea by showing that the advice he
received from counsel was not within the standards set forth in McMann." (Id)

See also, Tollett v. Henderson, 411 U.S. 258, 93 S. Ct. 1602, 36 L. Ed. 2D 235 (1973); McMann
v Richardson, 397 US 759, 770, 25 L Ed 2d 763, 90 S Ct 1441 (1970); Padilla v. Kentucky, 559
U.S. 356, 130 S. Ct. 1473, 176 L. Ed. 2d 284 (2010); Edmondson v. Sec’y, Fla. Dep’t ofCorr.,
2018 U.S. App. LEXIS 21261 (11th Cir. (Fla.) 2018) (“A defendant can overcome the otherwise
voluntary and intelligent character of his guilty plea only if he can establish that the. advice he
received from counsel in relation to the plea was not within the range of competence demanded
of attorneys in criminal cases in violation of Strickland v. Washington...") Clearly, the notion the
District Court cited is inapposite and inapplicable here as Petitioner is making a substantive

13

claim of ineffective assistance of counsel which rendered his plea involuntary in accord with
clear and well-established federal law and is thus unreasonable. For the state review court to
adopt this reason it would be contrary to or involve an unreasonable application of clearly
established federal law.
3) Whether Petitioner had a viable defense
The District Court finds “the evidence was not in dispute that Petitioner had actual
knowledge he was involved in a crash - his airbags deployed and his windshield was smashed.
The evidence would show that he did not stop to see if whatever or whomever he hit needed
assistance, but instead drove to a convenience store. Once there, he first announced to the clerk
that he hit someone but he did not attempt to contact law enforcement or seek medical assistance
for the victim.” (Appendix B p. 48)
First, the state post-conviction court found Petitioner's testimony credible concerning his
position that he did not know he hit a person. See, Marshall v. Lonberger, 459 U.S. 422, 434 *
(1983) (federal courts have “no license to redetermine credibility of witnesses whose demeanor
has been observed by the state trial court, but not by them.”); Consalvo v. Sec'y, Dept't of Corn,
664 F.3d 842, 845 (11th Cir. 2011) (“Determining the credibility of witnesses is the province and
function of the state courts, not a federal court engaging in habeas review.”) Credibility and
demeanor of a witness are considered to be questions of fact entitled to a presumption of
correctness under the AEDPA. (Id.); See Also, 2254(e)(1) The State below nor the Respondent
has ever contested this credibility finding by the state post-conviction court, therefore it is
presumed correct. Thus, the Petitioner's testimony presented at the evidentiary hearing as to the
facts of the crash and other circumstances cannot be second-guessed and must be accepted as

14

true.
The District Court makes three factual findings to opine that “[Petitioner] did leave the
scene of the crash scene without stopping to determine if assistance could be rendered.”
(Appendix B p. 48) The first one appears to be that Petitioner had actual knowledge of the crash
at the time of impact due to the airbag deployment and smashed windshield. Petitioner contends
that this finding is unreasonable as it misapprehends or ignores Petitioner's testimony as to when
actual knowledge of the crash was determined. Petitioner testified that he fell asleep at the wheel
and he was startled awake by the deployment of the airbags. Upon awakening all he saw was the
airbags deployed and a busted windshield, and darkness all around him due to there not being
any street lights. He specifically testified that only upon arriving at the nearby convenience store
he determined that he was actually involved in a crash as he was now able to view and assess the
rest of the damage to the front area of the van.
The second factual findings that “the evidence would show that Petitioner did not stop to
see if whatever or whomever he hit needed assistance, but instead drove to a convenience store,”
is likewise unreasonable because it is infected by legal error and also misapprehends or misstates
the record or ignores the Petitioner's actual testimony. Florida law instructs that drivers of a
vehicle involved in a crash which results in the injury or death of a person “shall immediately
stop the vehicle at the scene of the crash, or close thereto as possible, and shall remain at the
scene of the crash” until he or she has rendered reasonable assistance and provided identification.
See, s. 316.027, & s.316.062, Fla. Stat. Florida case law posits that one stopping to make an
investigation is a reasonable if not obligatory act towards completing the duties required by the
statute. See, Martin v. State, 323 So. 2d 666 (Fla. 3rd DCA 1975); Goodman v. State, 2017 Fla.

15

App. Lexis 10689, 42 Fla. L. Weekly D1669 (Fla. 4th DCA 2017). Furthermore, in order to be
found guilty of LSOA a driver must have knowledge he was involved in a crash and of the
resulting injury prior to making an affirmative decision to leave the scene of the crash. See, Sims
v. State, 998 So. 2d 494 (Fla. 2008) (citing Triplett v. State, 709 So. 2d 107, 108 (Fla. 5th DCA
1998))
The unrebutted and credible testimony of the Petitioner at the evidentiary hearing
establishes that he reasonably complied with his duty to stop at the scene of the crash, or close
thereto as possible in order to at least “ascertain whether any injury or damage occurred.”
Petitioner testified that at the instance of the crash occurring he did not know he hit a person
because he fell asleep at the wheel and upon awakening all he saw was “pitch black” due to there
not being any street lights. Petitioner testified he did not have any way of communication on his
person and his van became disabled by the crash by the fuel-ignition shut off switch. Due to
these circumstances, Petitioner particularly stated that he made the most reasonable conscious
decision and indeed stopped at a nearby (only seconds away) convenience store “to determine if
I need help, and you know, basically determine what actually took place.”
The District Court's decision is infected by legal error because it does not take into
account that Florida law permits drivers to stop “close to the scene as possible.” “to at least
ascertain whether any injury or damage occurred,” which is exactly what Petitioner's unrebuted
testimony establishes he did. Petitioner contends that Florida law takes into account that there are
sometimes situations in which it would not be prudent or feasible for a driver to immediately
stop at the scene of the crash and therefore includes the “or as close thereto as possible”
provision. Such was the instant case. Logically, if Petitioner pulled over on the side of the road

16

with a disabled vehicle, no way of communication, and in a darkened (pitch black) area, even if
Petitioner discovered an injured person at that time he would have had no option but to now walk
to the same Tom Thumb store to call for help. For the District Court to find that the evidence
shows the Petitioner did not stop to make an investigation is unreasonable as that is directly
contradictory to the evidence presented. Additionally, the District Court does not take into
account that a driver can only be criminally liable under Florida law if he had knowledge of the
crash and resulting injury prior to making an affirmative decision to leave the scene. Sims, supra.
The facts of the case show that Petitioner did not gain this knowledge until he arrived at the
convenient store after he had already prudently proceeded to the store. Once there Petitioner
stayed on the premises, alerted the store clerk to the crash which resulted in the clerk calling law
enforcement and subsequently paramedics. Petitioner never attempted to leave the premises.
There is no evidence that Petitioner was acted inconspicuously or attempting to evade law
enforcement or hide anything. He alerted the store clerk to being involved in a crash and possibly
hitting something and also approached and informed the first officer on scene of his involvement
in a crash, as well as provided all necessary identification to law enforcement. There is nothing
more Petitioner could have done to make an effort to comply with his duty under Florida law.
Therefore, the District Court's decision is unreasonable.
The third factual finding by the District Court that upon arrival at the convenience store
“[Petitioner] first announced to the clerk that he hit someone but he did not attempt to contact
law enforcement or seek medical assistance for the victim” is likewise unreasonable as it
misapprehends the record or ignores Petitioner's testimony and it is infected by legal error.
Petitioner contends that under Florida law a driver's duty to render reasonable assistance is

17

triggered by one's knowledge of the injury or death. See State v. Mancuso, 652 So. 2d 370,
372 (Fla. 1995) (“[Florida Statute 316.027] requires an affirmative course of action to be taken
by the driver and it necessarily follows that one must be aware of the facts giving rise to this
affirmative duty in order to perform such a duty.”) A jury is instructed to determine whether a
driver “knew, or should have known of the injury to or death of the victim from all the
circumstances, including the nature of the crash.” See, Fla. Std. Jury Instr. (Crim) 28.4 (2008);
see also Sims, supra, holding that knowledge of the crash and injury is required prior to a driver
making an affirmative decision to leave the scene in order to be criminally liable under Florida
law. The District Court did not make any factual findings on whether Petitioner knew, or should
have known of the injury to the victim from all the circumstances, including the nature of the
crash which would have triggered his duty to seek medical assistance for the victim. Petitioner's
testimony at the evidentiary hearing established that he was not aware another person was
involved at the instance of the crash occurring - he fell asleep at the wheel and upon being
startled awake by the deployment of the airbags all he saw was the deployed airbags, a busted
windshield, and pitch blackness all. around him. Petitioner testified “[o]nce the impact occurred I '
didn't know what exactly happened. All I know is I seen the air bags. The air bags were
deployed, and I seen the windshield. And all I seen was darkness all around me...And when I got
to the store, I exited the vehicle. And that's when I saw the rest of the damage to the vehicle. So
at that point is when I became aware that I hit something, but didn't know what it was.”
Petitioner's testimony establishes that he did not have actual knowledge he was involved in a
crash until he was able to view and assess the damage to the van at the store. However, he could
not determine what he hit as there was no visible indicators that would lead a reasonable person

18

to believe a person was involved, much less injured - there was no significant signs of blood or
otherwise. Even the first officer on scene testified at a Pretrial Detention Hearing (which was
included in the state record) that other than signs of a recent crash, at first glance he could not
decipher what Petitioner hit. A determination on whether Petitioner “knew or should have known
of the injury to or death of the person” is necessary and material towards Petitioner’s guilt.
Mancuso, supra at 372. The District Court's decision does not take into account this portion of
Florida law and and misapprehends or ignores Petitioner's testimony with regard to such.
4) Whether the record supports Petitioner's claim that he would not have entered a plea but
would have insisted on going to trial
Petitioner also contends that jurists of reason would disagree with the District Court’s
denial of ground five concerning whether the record supports Petitioner’s allegation that he
would not have entered a plea but would have insisted on going to trial absent counsel’s deficient
performance. Notably, the state post-conviction court nor the state review court made any
findings as to prejudice and therefore there was no factual findings in which attach, despite the
Respondent's argument that the appeals court “could have reasonably” adopted this reasoning.
Even if the district court adopted this reasoning or made a de novo determination of the merits,
Petitioner contends such was unreasonable and erroneous. Petitioner objected to the District
Court’s finding that “the circumstances surrounding both the crash and the entry of the plea leads
to the conclusion that, in light of the evidence that he did leave the crash scene without stopping
to determine if assistance could be rendered, there is no reasonable probability that Petitioner
would have insisted on going to trial.” (Appendix B p. 48-49) The district court opined that
Petitioner only makes a “mere allegation” that he would have insisted on going to trial.” (Id.)
First, Petitioner contends that this decision is contrary to or involved an unreasonable

19

application of clearly Hill v. Lockhart, and its progeny, including Lee v. United States. Hill’s
prejudice component does not require the petitioner to prove that he would indeed prevail at trial.
See, Hill v. Lockhart. 877 F.2d 698 (1989) (“To succeed under Strickland, Hill need not show
prejudice in the sense that he probably would have been acquitted or given a shorter sentence at
trial, but for his attorney's error. Ail we must find here is a reasonable probability that the
result of the plea process would have been different — that Hill "would not have pleaded
guilty and would have insisted on going to trial," Hill, supra, 474 U.S. at 59 -- if counsel had
given accurate advice.” (Id.); See also, Miller v. Champion. 262 F.3d 1066 (10th Cir. 2001)
Furthermore, in Lee v. United States. 137 S.Ct. 1958 (2017) this Court recently held that
the lack of a viable defense does not foreclose a finding of prejudice in accord with Hill as “the
inquiry we prescribed in Hill v. Lockhart focuses on a defendant's decisionmaking, which may
not turn solely on the likelihood of conviction after trial.” Lee. 137 S.Ct. At 1966-67. “[W]e are
instead asking what an individual defendant would have done, the possibility of even a highly
improbable result may be pertinent to the extent it would have affected his decisionmaking.” (Id)
(Italics supplied) In this case, Petitioner pointed to un-rebutted objective evidence which was
presented in the state courts, including his continued protestation of innocence from the outset of
the case, that he would not have plead to leaving the scene of an accident and would have
insisted on going to trial if not for counsel’s failure to inform him of the elements of proof and
law pertaining to the crime of leaving the scene of an accident involving injury/death. For the
state court or the district court to narrow their analysis of Hill & Lee's prejudice component to
whether the Petitioner indeed had a viable defense would result in an “unreasonable” decision in
light of clearly established federal law. As shown below Petitioner presented more than sufficient

20

evidence to show that in light of his adamant and continued protestations of innocence that he
did not leave the scene of an accident without trying to seek help or trying to comply with
Florida law that even the “possibility” of obtaining a highly improbable not guilty verdict at a
jury trial he would not have entered a plea but would have insisted on going to trial if trial
counsel had competently advised him as to the law surrounding the offense of LSOA. The
decision of the District Court was unreasonable.
Moreover, the decision of the state review court as adopted by the U.S. district court on
whether the Petitioner presented sufficient evidence to meet the prejudice component of Hill is
an unreasonable determination of facts in light of the evidence presented. Petitioner contends that
jurists of reason would conclude that the un-rebutted record evidence show that under the totality
of the circumstances the Petitioner would not have pleaded guilty but would have insisted on
going to trial. No reasonable juror would disagree that Petitioner did not make a “mere”
allegation that he would not have entered a plea but would have insisted on going to trial, as the
District Court suggests. Several factors would lead to the conclusion that the Petitioner met the
prejudice component of Hill. Taking into consideration the above regarding the District Court’s
misapprehension of his defense, the record evidence of Petitioner’s credible and unrebutted
testimony at the evidentiary hearing established a viable defense (consistent with Florida law).
Additionally, the Petitioner did not make a mere self-serving allegation that he would not have
pled guilty but would have insisted on going to trial. The Petitioner’s credible and unrefuted
testimony at the evidentiary hearing reveals that he has always professed his innocence towards
the LSOA charge from the very day he was arrested and has held that position throughout all the
proceedings, including sentencing, which his trial lawyer was cognizant, and Petitioner testified

21

of his desire of not wanting to plead guilty to the LSOA charge which Petitioner supported by
introducing and reading into the record a letter written to the victim’s family immediately prior
to pleading wherein he begged for their intervention in not making him plead guilty to the crime
of LSOA, in which no party has disputed. Also, the fact that Petitioner pleaded his “innocence”
to the LSOA charge at his sentencing hearing, the fact that Petitioner had no benefit from
pleading “open to the court” where there was no favorable recommendation made by victim’s
family as to a lenient sentence, no favorable plea offers made by the State, and in fact the
contrary was argued by the State at Petitioner’s sentencing hearing, the fact that the Petitioner
was exposed to the same grim 46 years prison had he gone to trial and lost but which had he won
could have his sentence exposure reduced drastically by 30 years!, the fact that Petitioner’s trial
counsel was nonchalant in discussing the LSOA charge with Petitioner despite Petitioner’s claim
of innocence and advised that the leaving the scene was of “minimal relevance” when it clearly
was/is not (having a 30-year maximum exposure two times more than the D.U.I. Manslaughter
charge), along with the fact that his counsel misadvised the Petitioner as to the requirements of
proof pertaining to LSOA in that it only required knowledge of the crash as opposed to also
discussing/informing him of the knowledge of injury element as discussed herein, the fact that
the plea colloquy does not discuss with Petitioner any defenses with regard to LSOA or that
counsel discussed with Petitioner any specific defense or the elements with regard to LSOA, the
fact that the plea colloquy does not reference a sufficient statement as to the factual basis
(including the elements) of LSOA but counsel merely states “he left the scene and went to a
convenient store,” and lastly, the fact that the plea colloquy does not show that the plea court
found Petitioner’s plea to be entered “knowingly, willfully, and voluntarily” as required by law,

22

all would support the argument that reasonable jurists would disagree with the District Court’s
resolution of this claim as it is clear that the Petitioner met his burden in proving the prejudice
component of Hill. (Id.) The District Court does not point to any record evidence to rebut any
one of the above mentioned factors. Therefore the District Court's finding is unreasonable in
light of the evidence presented.
B. Post-Conviction Court Order: State Court’s decision was unreasonable under 2254(d¥2)
and the factual findings have been overcome by clear and convincing evidence in the record
under 2254(e~)(D
Because it is the Petitioner's burden to prove that there is no reasonable basis for the state
court to deny Petitioner Relief, See, Wilson, supra at 1198, 1203-04 (citing Harrington v.
Richter. 562 U.S. at 98, 131 S.Ct., 770, (2011)) the Petitioner offers the following concerning the
state post-conviction court's denial.
After an evidentiary hearing was held, the state postconviction court denied the
Petitioner's claim that his trial counsel was ineffective for failing to adequately advise him that
the law concerning the charge of leaving the scene of a crash involving death required that he
have knowledge of injury before he made the affirmative decision to leave the scene of the crash,
which is determined by the totality of the circumstances, including the nature of the crash. Also,
that his actions could be considered as complying with the requirements of Florida law and that
his leaving the scene was the only means to get help is a defense to the charge. In denying his
claim the state post-conviction court held:
The Court finds counsel's and Defendant's testimony credible that Defendant position
was that he did not know that he hit a person. The Court also finds Ms. Griego's
[Petitioner's mother's] testimony credible that counsel did not discuss with her any
defenses to the leaving the scene of an accident charge. Based on the evidence before
this Court, the Court finds that Defendant did not have any viable defenses to the leaving
the scene of the accident charge. By Defendant's own admission at [the] evidentiary
23

hearing, he pulled over at the Tom Thumb store not to call 911 or law enforcement for
help, but because his van was disabled....This testimony, paired with Defendant's
statement that he hit somebody, his laughter, and then changing his statement to say he
thought he hit something, would have only shown that Defendant was concerned for his
own welfare and not that of the victim when he stopped at the Tom Thumb store....As
there was no viable defense to leaving the scene of an accident given the circumstances
of this case, Defendant has failed to demonstrate that counsel was deficient for failing to
advise of any defense to the charge.

Petitioner contends that the state-court's decision was unreasonable as 1) the findings are
unsupported by sufficient evidence; 2) there was no factual finding made by the state-court at all
concerning relevant issues; 3) the state-court's fact finding process was defective; 4) the statecourt's factual finding was infected by legal error; 5) the state-court ignored evidence presented
at the evidentiary hearing; 6) the state court plainly mistated the record in its findings which goes
to a material factual issue that is central to the outcome of the claim; and 7) the state-court's
decision was contrary to or involved an unreasonable application of Strickland.
1) Whether the state court decision was contrary to or involved an unreasonable application of
Strickland.

Petitioner contends the state-court's decision regarding Petitioner's overall claim that
counsel provided ineffective assistance for failing to advise him as law concerning the charge of
leaving the scene of a crash involving death and other viable defenses, is unreasonable. The state
court's ultimate decision that “as there was no viable defense to leaving the scene of an accident
given the circumstances of this case, Defendant has failed to demonstrate that counsel was
deficient for failing to advise defendant of any defense to the charge,” is contrary to or involves
and unreasonable application of Strickland v. Washington, 466 U.S. 668.
This Court in Strickland set forth the basic standards for determining whether trial

24

counsel rendered ineffective assistance. Strickland specifically states that when reviewing the
deficient performance prong a reviewing court “must then determine whether, in light of all the
circumstances, the identified acts or omissions were outside the wide range of professionally
competent assistance.” Strickland, 466 U.S. at 690 (Emphasis Added)
Petitioner contends by determining counsel's performance based wholly upon the
viability of the defense in the instant case, the state-court narrowed Strickland's proper standard
of review of the deficiency prong by not considering “all of the circumstances” that would justify
a reasonable competent counsel to advise his client about “the law and circumstances”
surrounding the offense charged (LSOA), despite clearly established federal law that an attorney
has the 6th Amendment constitutional duty to inform a defendant of all pertinent matters bearing
on the choice of whether to plead guilty. See, Von Moltke v. Gillies, 332 U.S. 708, 721 (1948);
see also, Henderson v. Morgan, 96 S. Ct. 2253 (1976); Lafler v. Cooper, 132 S. Ct. 1376, 182 L.
Ed. 2d 398 (2012); Missouri v. Frye, 132 S. Ct. 1399, 1404, 182 L. Ed. 2d 379 (2012), Padilla v.
Kentucky, 559 U.S. 356, 130 S. Ct. 1473, 176 L. Ed. 2D 284 (2010); Bradshaw v. Stumf, 545
U.S. 175, 183 (2005)
Had the state-court done so the circumstances present in the record that would show
counsel's deficient performance are: 1) counsel's awareness of Petitioner's claims of innocence
from the very date of arrest and Petitioner's desire not to plead guilty to the LSOA offense as told
to counsel by Petitioner (which the state-court found counsel understood) and which Petitioner
supported by a letter written to the victim's family which was provided to trial counsel; 2) the
fact that there was no beneficial negotiated plea agreements/discussions with the State to resolve
the case or beneficial victim input for a low sentence; 3) the fact that Petitioner's sentencing

25

exposure would have been the same had he proceeded to trial and lost, whereas had he won it
would have been significantly (30 years!) less; and 4) the fact that counsel failed to even discuss
with petitioner the law pertaining to LSOA as applied to the facts of his case and actually
misadvised Petitioner of such when clearly established law provides a duty by trial counsel to
advise a defendant about all pertinent matters bearing on the choice of whether to plead guilty or
go to trial and that Petitioner be informed as to the elements of the charges.
Considering all of the aforementioned circumstances in this case it is only reasonable to
conclude trial counsel was deficient. Thus, the state-court's decision considering only the
viability of the defense is contrary to or involved an unreasonable application Strickland.
Petitioner contends that no fairminded jurist would disagree that the state-court's decision was
unreasonable.
2) Whether the state court's decision was unreasonable in light of the evidence presented as
the the state court's decision is unsupported by sufficient evidence; its factfinding process was
defective as it misapprehends, misconstrues, misstates, or ignores evidence in the record, the
factfinding was infected by legal error; and no factfinding was made at all on relevant issues

The state-court's finding that counsel was not ineffective for failing to advise Petitioner of
law concerning the charge of leaving the scene of a crash involving death and other viable
defenses because Petitioner had no viable defense is also unreasonable in light of the evidence
presented in the state court.
First the state post-conviction court found Petitioner's testimony credible in that counsel
understood what Petitioner’s position was as to the LSOA charge (i.e. that he did not know he hit
a person). This credibility finding cannot be second-guessed and must be accepted. See
Pemberton v. Collins, 991 F.2d 1218, 1225 (5th Cir. 1993) ("The habeas corpus statute obliges

26

federal judges to respect credibility determinations made by the trier of fact." (citing Sumner v.
Mata, 455 U.S. 591, 597, 102 S. Ct. 1303, 71 L. Ed. 2D 480(1982)) Therefore Petitioner’s
testimony presented at the evidentiary hearing held in the state-court regarding the facts
surrounding the LSOA charge and his trial counsel's deficiencies must be taken as true.
The state-court’s factual finding that Petitioner admitted at the evidentiary hearing that
“he pulled over at the Tom Thumb store, not to call 911 or law enforcement for help, but because
his van was disabled, [which] could have been considered disabled by the flat tire or the fuel
shut-off switch that would have been activated upon collision,” is not supported by sufficient
evidence in the record and also misconstrues/ignores the Petitioner's actual testimony.
Petitioner testified at the evidentiary hearing that due to the circumstances of the crash,
including falling asleep at the wheel, and the pitch black lighting conditions due to there not
being any street lights, at the instance of the crash occurring he did not know he hit a person.
Petitioner stated he did not have any way of communication on his person and his van became
disabled by the crash. Due to these circumstances, Petitioner stated that he made the most
reasonable conscious decision and stopped at the nearby (only seconds away) convenience store
“to determine if I need help, and you know, basically determine what actually took place.” The
Petitioner stated in essence that proceeding to the nearby store was the only reasonable and
prudent thing to do under the circumstances.2 Clearly, the evidence does not support the statecourt's factual finding that Petitioner went to the nearby Tom Thumb store merely because his
van was disabled but also to ascertain what actually took place and to seek out help, if necessary.
Logically, if Petitioner pulled over on the side of the road with a disabled vehicle, no way
of communication, and in a darkened (pitch black) area, even if Petitioner discovered an injured
person at that time he would have had no option but to now walk to the same Tom Thumb store
to call for help.
2

27

The state-court's factual finding ignores/misconstrues Petitioner's actual unrebuted and credible
testimony regarding his defense and is therefore “perforce unreasonable.” See, Maddox, 366 F.3d
1000-01. Petitioner also contends that it is rebutted by clear and convincing evidence in the
record as recited above.
Secondly, the state-court's factual finding that the Petitioner did not have a viable defense
because [the evidence] showed that Petitioner was concerned for his own welfare and not that of
the victim's when he stopped at the (nearby) Tom Thumb store is unreasonable, for one, based on
the above. Also, the Petitioner's statement to the clerk in and of itself does not support such
finding of Petitioner being concerned for his own welfare when considered in light of all the
evidence as a whole. Taking into consideration Petitioner's actual unrebuted and credible
testimony at the evidentiary hearing, Petitioner was not aware that he had struck a person until
actually notified by law enforcement at the Tom Thumb store. Petitioner testified that there were
no visible indicators that would give him knowledge (actual or constructive) that he hit a person.
Petitioner testified that he did not see what he hit at the time of the crash occurring due to his
falling asleep at the wheel. Upon being startled awake by the explosion of the airbags he only
saw the cracked windshield, the deployed air bags, and darkness all round him. When he arrived
at the Tom Thumb store he became aware he hit something due to the damage he viewed to the
hood area of the van but did not know what it was. He did not see any blood or other evidence to
indicate what he hit. The first officer on scene even testified at the Pretrial Detention Hearing
that “other than signs of a recent crash he could not tell what Petitioner hit.” and the store clerk
also testified at the Pretrial Detention hearing that Petitioner stated he didn't know what he hit “maybe a sign or something.” Petitioner also reasoned that his statement to the store clerk that “I

28

think I hit someone, or something, I don't know what it was,” was him attempting to report the
crash under Florida law. Petitioner argued that it was only due to his report to the store clerk
about being involved in a crash that the store clerk called law enforcement and Petitioner
subsequently approached the first officer and reported the crash to him which in turn paramedics
were eventually called. The evidence does not support that Petitioner was faced with a situation
in which he was aware of the victim's condition (or that there was another party involved) and
deliberately or negligently chose to ignore such only to seek help for himself.
Thus, in light of the evidence that was presented at the evidentiary hearing the statecourt's decision that Petitioner did not have a viable defense because the evidence showed
Petitioner was concerned for his own welfare and not that of the victim's when he stopped at the
Tom Thumb store is unreasonable and or has been overcome by clear and convincing evidence in
the state court record.
Furthermore, the state-court's decision that Petitioner did not have a viable defense is
unreasonable because the state-court's faculty findings were infected by legal error. The state
post-conviction court's assessment of the defense does not take into account the law pertaining to
the offense of LSOA in that Florida law instructs that drivers of a vehicle involved in a crash
which results in the injury or death of a person “shall immediately stop the vehicle at the scene of
the crash, or close thereto as possible, and shall remain at the scene of the crash” until he or she
has rendered reasonable assistance and provided identification. See, s. 316.027, & s.316.062, Fla.
Stat. Florida case law posits that one stopping to make an investigation is a reasonable if not
obligatory act towards completing the duties required by the statute. See, Martin, supra\
Goodman, supra. Furthermore, in order to be found guilty of LSOA a driver must have

29

knowledge he was involved in a crash and of the resulting injury prior to making an affirmative
decision to leave the scene of the crash which is determined by the totality of the circumstances,
including the nature of the crash. See, Sims, supra; Fla. Std. Jury Instr. (Crim) 28.4 (2008) And
that a driver's duty to render reasonable assistance is triggered by one's knowledge of the injury
or death. Mancuso, supra. The state post-conviction court ignores Petitioner's testimony that he
indeed stopped at a nearby (only second away) convenience store which Florida law permits and
even instructs drivers to do to at least ascertain what took place. Therefore Petitioner contends
that he complied with Florida law in this respect. He also reported the crash to the store clerk
upon arrival at the store and the first officer on scene, and further provided his driver's license
information, which also complied with Florida law. Further, Petitioner never left the scene of the
Tom Thumb store or even attempted to leave, and could not return to the crash site due to the
circumstances. Lastly, the state court relies upon after-the-fact (after the crash) evidence (i.e.
Petitioner's statements to the store clerk) yet the state-court does not make an independent factual
finding as to whether Petitioner's unrebuted and credible testimony as to the circumstances of the
crash would have lead Petitioner to “know or should have known”of the injury to the victim.
prior to making a decision to leave the scene in congruence with Florida law. The state-court did
not point to any evidence to rebut Petitioner's credible testimony at the evidentiary hearing that
he fell asleep at the wheel, and at the instance of crash occurring all he saw was busted
windshield, the deployed airbags, and pitch darkness all around him. He did not see the victim
before, at the time of, or after the crash. At the time of the crash the Petitioner was uncertain as to
what took place - in other words, he did not have actual knowledge that a crash occurred. It
wasn't until Petitioner arrived at the Tom Thumb store that he developed this knowledge of a

30

crash once he was able to assess the rest of the damage to the van. Petitioner testified by the time
he reacted to the situation he realized his van was disabled and “fortunately at that time I saw the
store up ahead.”
Due to the circumstances of the crash there is not a reasonable probability that Petitioner
“knew or should have known that he hit a person prior to making the decision to leave the scene
(or point of impact) and proceed to the nearby Tom Thumb store. The state-court however
appears to ignore the actual law with regard to how a driver violates the statute by relying only
on after-the-fact evidence and not considering “the totality of the circumstances, including the
nature of the crash.” Thus the state-court's factual finding is infected by legal error, fails to make
the necessary factual findings with regard to the circumstances of the crash, and ignored
evidence presented in the state court. The state-court's factual findings are unreasonable and or
have been overcome by clear and convincing evidence presented in the state court.
To the extent that the state-court does not make the necessary findings with regard to
counsel's deficient performance as put forth by the U.S. district court, it is unreasonable as those
findings are necessary to a determination of counsel's deficient performance. The district court
opined “the Petitioner asserts that the post-conviction judge 'ultimately found that Petitioner's
trial counsel did not advise defendant of such relevant information but that the Petitioner had no
viable defense.' This mischaracterizes the post-conviction court's finding...[t]he post-conviction
court found only that it was defendant's position that he did not know he hit someone and that
under the circumstances of the offense, including the lack of a viable defense, defense counsel
was not deficient.”
By this opinion, it appears that the district court would agree that the state-court did not

31

make a factual determination on 1) whether trial counsel discussed the law surrounding LSOA
and defenses thereto with the Petitioner; 2) whether counsel had a strategic reason for not doing
so, or whether that decision was unreasonable; 3) whether counsel had a constitutional duty
under the circumstances of the case (not the offense) as a whole to discuss such with the
Petitioner; 4) whether the Petitioner's testimony that counsel failed to discuss such with him was
credible; among other things However, the district court does not expressly make such a finding.
Nonetheless, Petitioner contends that the state-court's failure to make essential findings shows
that the state-court's fact finding process was defective, therefore its decision is unreasonable.
This is illuminated by the fact that the state post-conviction court particularly found that counsel
did not discuss with Petitioner's mother any defenses to LSOA yet failed to determine whether
the same was true as to Petitioner. Such a finding would have been necessary to the resolution of
Petitioner's claim. Notably, however, the state post-conviction court did cite to the Petitioner's
allegations pertaining to counsel's deficient performance as raised in his motion and testified to
at the evidentiary hearing as well as trial counsel's testimony but never made the factual finding
mentioned above. Furthermore, the fact that the Respondent argues other reasons on why the
state review court could have denied Petitioner’s claim is also a quintessential showing of
unreasonableness. See, e.g. Wilson, 138 S.Ct. at 1196.
With all of the foregoing Petitioner contends that he has shown that the state-court's
decision was unreasonable as it was “contrary to or involved an unreasonable application of
clearly established federal law, or involved an unreasonable determination of facts in light of the
evidence presented in the state court.” Wherefore Petitioner contends that the district court's
reliance on these factors are erroneous and unreasonable.

32

C. Factual Finding by the state court was overcome by clear and convincing evidence
outside the record under 2254(e)(1)
To be brief and clear, the evidence Petitioner moved to be be introduced in the federal
court which was not presented in the State post-conviction court through no fault of his own is
physical evidence that would corroborate petitioner's testimony. This evidence includes: DVD of
store video-recording, minute-by-minute analysis of store video, Santa Rosa County Sheriffs
Office (SRCSO) recording of call made by store clerk/witness, SRCSO witness statement audio­
recording by store clerk, Payphone Records from Tom Thumb store, Sworn Witness statement
made by store clerk, CD containing photos of accident scene & photos of Van at the store, CD
containing photos of Van taken by Florida Department of Law Enforcement (FDLE), Google
Map/Hampton Inn Map from Internet, Photos of Highway 98 during daylight hours, Florida
State Troopers Accident Investigation Report, FDLE Reports, Post-conviction Expert Alan J.
Armstrong Reconstruction Report, Sworn Affidavit of Gregory Copeland (Father of deceased),
SRCSO dispatch records, New Reconstruction report of Reconstruction Expert (requested by
Petitioner).
As presented in the District Court this evidence would corroborate the Petitioner's
testimony of the facts and circumstances surrounding the crash and events afterward which
would reasonably support a viable defense that he did not have knowledge of the crash and/or
injury at the time of the crash and could not have developed knowledge of injury thereafter due
to the nature of the crash and other circumstances, that he complied with Florida law by stopping
close to the scene as possible by proceeding to a nearby (only second away) convenient store,
alerting the store clerk to being involved in a accident in which law enforcement and paramedics
were called, by approaching and making a report of the accident to the first officer on scene and
33

providing his identification/driver's license.
Petitioner contends that all of this evidence taken together will indeed show the
circumstances Petitioner was faced with upon the accident occurring and in which would have
led a reasonable person to take the same action as the Petitioner. The evidence will show that it
was the only action Petitioner could have reasonably took due to the nature of the crash and the
conditions of the night - it was pitch black! The photos of Petitioner's vehicle immediately after
the crash will indeed show that there were no significant indicators that would lead a reasonable
person to believe that another person was involved. In fact, this is verified by the first officer on
scene's testimony that other than signs of a recent crash he could not decipher what Petitioner hit.
Petitioner posited that it was only after the deceased was located that the officers took a closer
examination of the van with high-capacity lighting and high-capacity camera lens to reveal
minute traces of blood and hair follicles embedded in the busted windshield.
This evidence would amount to clear and convincing evidence to rebut the presumption
of correctness of the factual findings made by the state courts and/or the findings made by the
District Court below that Petitioner did not have a viable defense. Petitioner contends that this
evidence should have been permitted to be introduced in the habeas proceedings and considered
in determining the merits of the petition. Petitioner contends that this Court should grant
certiorari to review this case as this evidence will show that the Petitioner is actually innocent of
the accused crime of leaving the scene of a crash under Florida law to which Petitioner is
currently serving an eight-year prison term.
On three separate occasion the Petitioner requested the U.S. District Court for the ability
to conduct discovery and financial assistance to hire an expert, and also to expand the record.

34

The requests were related to a determination on the merits of his habeas corpus petition as well
as showing his actual innocence to excuse any procedural defaults. The U.S. District Court on all
occasions denied these requests without reason despite the objections lodged by the Petitioner in
his Traverse and Objections to Report and Recommendation of the Magistrate Judge. (See
Appendix B pg. 2) However, the Magistrate Judge, in the analysis section of its R&R stated
“This Court's review 'is limited to the record that was before the state court that adjudicated the
claim on the merits.'” (See, Appendix B pg. 12; citing Pinholster, 563 U.S. At 181. The
Magistrate Judge however also recited the law under 2254(e)(1) in that “the state court's factual
findings are entitled to a presumption of correctness and to rebut that presumption, the Petitioner
must show by clear and convincing evidence that the state court determinations are not fairly
supported by the record.” (Appendix B pg. 12-13)
Petitioner contends that the District Court wholly and erroneously failed to consider the
evidence the Petitioner sought to expand into the record in order to meet his burden under
2254(e)(1). The Petitioner lodged objections to such and raised in his application for a certificate
of appealability as being erroneous.
For the above-mentioned reasons this Court should grant certiorari review in this case.
D. Petitioner has made a substantial showing of the denial of a constitutional right
The Constitution demands a defendant to receive the effective assistance of counsel
during criminal proceedings, including the plea process. It is clearly established that the
Constitution requires that a defendant be advised of the law pertaining to the charged offense.
Prevailing professional norms also require trial counsel to inform and advise the Defendant about
all pertinent matters bearing on the choice of whether to plead guilty or exercise his

35

constitutional right to a jury trial. The failure of an attorney to advise his client of the relevant
law satisfies the first prong of Strickland.
Petitioner contends that the aforementioned arguments show that there was no reasonable
basis for the state court or the District Court to conclude that Petitioner's trial counsel was not
deficient in failing to advise him about the law pertaining to leaving the scene of a crash
involving death. Petitioner made sufficient allegations in his state post-conviction motion and
corroborated such at his evidentiary hearing supporting that his counsel failed to advise him
about the relevant law pertaining to LSOA despite Petitioner's continued adamant profession of
his innocence and his desire not to want to plead guilty to LSOA, and counsel's awareness of
such. Petitioner's credible and unrebuted testimony at the evidentiary hearing revealed a
reasonable basis to defend against the charge. There was no reasonable basis for trial counsel not
to advise the Petitioner about the relevant law in this case and Petitioner has shown by evidence
in the record that he would not have entered a plea but would have insisted on exercising his
constitutional right to a jury trial had counsel adequately advised him.
Petitioner thus contends that this court should exercise certiorari review of this case.

III. The questions presented are important.
The long established right to the effective assistance of counsel in criminal proceedings is
rooted and grounded in the 6th Amendment of the U.S. Constitution made applicable to the states
by the 14th Amendment. Strickland v. Washington. 466 U.S. 668 (1984) This right encompasses
and guarantees effective assistance in the plea process, which is a central component of the
criminal justice system, Hill v. Lockhart. 474 U.S. 52, 59, 106 S.Ct. 366 (1985) Lafler v. Cooper.
132 S. Ct. 1376, 182 L. Ed. 2d 398 (2012); Missouri v. Frve. 132 S. Ct. 1399, 1404, 182 L. Ed.
36

2d 379 (2012), Padilla v. Kentucky. 559 U.S. 356, 130 S. Ct. 1473, 176 L. Ed. 2d 284 (2010),
and ensures that a criminal defendant’s plea is entered knowing and voluntary. In order to be
constitutionally effective counsel an attorney must provide his client "with an understanding of
the law in relation to the facts, so that the accused may make an informed and conscious choice
between accepting the prosecution's offer and going to trial." Wofford v. Wainwright. 748 F.2d
1505, 1508 (11th Cir. 1984). The failure of an attorney to inform his client of the relevant law
satisfies the first prong of the Strickland analysis. Widen v. Sec.. Fla. Dep’t of Corr., 2010 U.S.
Dist Lexis 87677 (U.S.M.D. Fla. 2010); U.S. v. Brown. 117 F. 3d 471 (11th Cir. 1997).
In Lafler this Court pointed out that over 95 % of convictions in America are the result of
plea bargains. This case is one that highlights the importance of the effective assistance of
counsel during the course of plea proceedings as it could hamper a meritorious defense being
presented to a jury in which would establish the defendant's innocence. The denial effective
assistance of counsel here deprived Petitioner of his constitutional right to a full and fair jury trial
in which Petitioner desired the opportunity to establish his professed innocence. Petitioner met
his burden under Strickland/Hill/Lee to prove both deficient performance by counsel and that he
would not have entered a plea but would have insisted on going to trial.
Additionally, the federal provisions concerned here are relevant to finally give clarity to
federal courts and parties alike concerning the burden of proof in habeas corpus proceedings, of
which are also widely filed across the nation.

37

«•

IV. Warrantless Blood Draw taken in Violation of the Fourth Amendment of the U.S.
Constitution; Newly Recognized Right as announced by the U.S. Supreme Court in
Birchfield v. North Dakota that states may not criminally punish a defendant for refusing a
unlawful blood draw should be retroactively applied to cases on collateral review
The right to be free from unreasonable searches and seizures has long been a known
constitutional right under the Fourth Amendment of the U.S. Constitution. Clearly established
federal law holds that subject only to a few well-delineated exceptions, searches conducted
without prior judicial approval are per se unreasonable under the Fourth Amendment. Katz v.
United States. 389 U.S. 347, 357, 88 S. Ct. 507, 19 L. Ed. 2d 576 (1967). Thus, law enforcement
must obtain a warrant prior to searching or seizing one’s person or property unless one of a few
limited exceptions exist, including as in this case, exigent circumstances. In DUI cases where
law enforcement seeks to withdraw blood from a suspect’s person, the U.S. Supreme Court has
long held that the dissipation of alcohol in a person’s blood stream may qualify as an exigent
circumstance. Schmerber v. California. 384 U.S. 757, 86 S. Ct. 1826 (1966) Recently, the Court
has clarified that the dissipation of alcohol by itself is not a per se exigent circumstance that
allows law enforcement to forego obtaining a warrant in every drunk driving case but that it is a
factor to be considered amongst many. Missouri v. McNeelv. 133 S. Ct. 1552, 1559, 185 L. Ed.
2d 696 (2013) Following this line of constitutional principles, the Court has also recently held in
Birchfield v. North Dakota, that under the Fourth Amendment states may not criminally punish
motorists for refusing to submit to an unlawful blood test. Birchfield. 136 S.Ct. at 2165.
Petitioner raised as claim in the state court and in his amended federal habeas corpus petition
that the Court’s recent decision in Birchfield should be retroactively applied to his case and that
his conviction for resisting an unlawful blood draw should be vacated and, that his plea and/or

38

♦jl*

sentence for the other charges of DUI Manslaughter and Leaving the Scene of and Accident
should also be set aside and remanded for a new trial or resentencing. Petitioner contends that if
a defendant cannot be criminally punished for refusing an unlawful blood test according to the
law then a judge or the State cannot use that basis to undermine the law and impose a sentence
(enhanced or not) based upon what is prohibited by law.
The state post-conviction court’s sole reason for denial was that Birchfield had not been
announced retroactive.
Petitioner contends that the state court’s jurisdiction to criminally punish him IN ANY
WAY for resisting an unlawful blood draw is removed by the Court’s holding in Birchfield where
the Court held that “State’s may not criminally punish a person for refusing an unlawful blood
draw.” The District Court failed to rule upon the contested issue of the Court’s holding in
Birchfield and a determination of whether Birchfield qualifies to be made retroactive. It is clearly
established law that if the Court’s new rule is determined to be one that requires retroactivity
then a criminal defendant may obtain relief from the respective courts to gain the benefit of the
new rule. Montgomery v. Louisiana. 136 S. Ct. 718, 728-32 (2016) In addition, the Court’s new
rule “places beyond the authority of the state the power to regulate certain conduct or impose
certain penalties,” thus as held by the Court in Montgomery, supra, “the Constitution requires
state collateral review courts to give retroactive effect to that rule.. .regardless of when a
conviction became final.” (Id. 136 S.Ct. at 729) Notably, at least one state has recognized
Birchfield’s retroactivity. See, Johnson v. State, 916 N.W. 2d 674 (Minn 2018) cert, denied
U.S.

, 139 S.Ct. 2475 (2019); see also, Fagin v. State, 2019 WL 4853606 (Minn. 2019)

The court in Johnson recognized that the rule announced in Birchfield was substantive and

39

« »
/

applied retroactively to defendants on collateral review and because the Birchfield rule is
essentially a challenge to the subject-matter jurisdiction of the convicting court, a guilty plea was
not a bar to bringing an as-applied Fourth Amendment challenge to convictions like Johnson’s.
However, a second state court has made a decision contrary to Johnson and Fagin ruling that
Birchfield does not overcome the retroactivity bar.
Petitioner contends that Birchfield is/should be made retroactive to cases on collateral
review and that Petitioner's conviction for resisting an unlawful blood draw in violation of the 4th
Amendment should be vacated, and Petitioner resentenced on the other offenses as the
sentencing court used his resisting as a basis to impose a more severe sentence.

CONCLUSION
The Petition for writ of certiorari should be granted.
Respectfully Submitted,
/s,

2
Anthonyd^Griego, pro-si

40

